CERTIFICATE OF SERVICE

Due to the shortage of time in filing a Petition for Rehearing, and
being presently incarcerated in prison, and having no access to a copy
machine, Petitioner is unable to send the Respondent's Counsel a true
copy of this Petitioner for Rehearing. Nonetheless, Petitioner will NOTIFY
in writting that a Petitionaxe For ReHearing has been filed with the Court,
so that the Attorney General's Office can obtain their own copy on-line.

The undersigned hereby certifies that a NOTICE of the foregoing was
mailed, postage prepaide, this 2 day of June 2021, to:

Attorney General's Office of Texas
Mr. Craig William Cosper

P.O.Box 12548

Austin, TX 78711

I declare under penalty of perjury that the foregoing is true and correct.
Executed on @( day of June, 2021. *

 

Efrain Lopez, Pet., Pro Se.

* Per "mailbox rule" this Petition@t For Rehearing shall be deemed filed as the
date above, Houston V. Lack, 487 U.S. 266 (1988).

14
